     Department of Homeland Security

     ��������������������������


 Maine's Management of Homeland Security Grant 

Program Awards for Fiscal Years 2010 Through 2012





OIG-14-86                                 April 2014

                      OFFICE OF INSPECTOR GENERAL 

                            Department of Homeland Security 

                             Washington, DC 20528 / www.oig.dhs.gov


 
                                      APR 28 2014 
 
MEMORANDUM FOR:	             Brian E. Kamoie 
                             Assistant Administrator 
                             Grant Programs Directorate 
                             Federal Emergency Management Agency 
 
FROM:	                       Anne L. Richards 
                             Assistant Inspector General for Audits 
 
SUBJECT:	                    Maine’s Management of Homeland Security Grant 
                             Program Awards for Fiscal Years 2010 Through 2012 
  
Attached for your action is our final report, Maine’s Management of Homeland Security 
Grant Program Awards for Fiscal Years 2010 Through 2012. We incorporated the formal 
comments from the Federal Emergency Management Agency in the final report. 
 
The report contains 10 recommendations aimed at improving the Federal Emergency 
Management Agency’s and Maine’s management of Department of Homeland Security 
Program Grants. Your office concurred with all of the recommendations. Based on 
information provided in your response to the draft report, we consider 
recommendation #1 resolved and closed. Recommendations #2 through #10 are 
resolved and open. Once your office has fully implemented the recommendations, 
please submit a formal closeout request to us within 30 days so that we may close the 
recommendations. The memorandum should be accompanied by evidence of 
completion of agreed‐upon corrective actions and of the disposition of any monetary 
amounts. Please email a signed PDF copy of all responses and closeout requests to 
OIGAuditsFollowup@oig.dhs.gov. 
 
Consistent with our responsibility under the Inspector General Act, we will provide 
copies of our report to appropriate congressional committees with oversight and 
appropriation responsibility over the Department of Homeland Security. We will post 
the report on our website for public dissemination. 
 
Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant 
Inspector General, at (202) 254‐4100.  
 
Attachment 
 
                                     OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1


   Background ........................................................................................................................ 2 


   Results of Audit .................................................................................................................. 3 

           

          State Homeland Security Strategy ......................................................................... 3 

          Performance Measurement ................................................................................... 5 

          Compliance with Procurement Requirements ...................................................... 6 

          Obligation of Grant Funds ...................................................................................... 7 

          Monitoring of Subgrantees .................................................................................... 9 

          Property Management and Inventory Controls .................................................. 11 

          Documenting Employees’ Time ........................................................................... 12 

          Recommendations ............................................................................................... 13 

          Management Comments and OIG Analysis ......................................................... 14 



   Appendixes
    

              Appendix A: Objectives, Scope, and Methodology ............................................. 20 

              Appendix B: Management Comments to the Draft Report ................................ 22 

              Appendix C: MEMA Grant Allocation Process ..................................................... 30 

              Appendix D: Homeland Security Grant Program ................................................. 31 

              Appendix E: Potential Monetary Benefits ........................................................... 32 

              Appendix F: Major Contributors to This Report ................................................. 33 

              Appendix G: Report Distribution ......................................................................... 34 





www.oig.dhs.gov                                                                                                                 OIG-14-86 

                                                                      

                    OFFICE OF INSPECTOR GENERAL
                         Department of Homeland Security


   Abbreviations
           AEL     Authorized Equipment List
           CFR     Code of Federal Regulations
           DHS     Department of Homeland Security
           FEMA    Federal Emergency Management Agency
           FY      fiscal year
           HSGP    Homeland Security Grant Program
           MEMA    Maine Emergency Management Agency
           MOU     memorandum of understanding
           OIG     Office of Inspector General
           SHSP    State Homeland Security Program
           SMART   specific, measurable, achievable, results-oriented, and time-
                   limited
           SPR     state preparedness report
           THIRA   Threat and Hazard Identification and Risk Assessment




www.oig.dhs.gov                                                                    OIG-14-86

                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Executive Summary
   Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff
   2007, requires the Department of Homeland Security (DHS) Office of Inspector General
   (OIG) to audit individual States’ management of State Homeland Security Program and
   Urban Areas Security Initiative grants. This report responds to the reporting
   requirement for Maine.

   The audit objectives were to determine whether Maine used State Homeland Security
   Program grant funds in accordance with the law, program guidance, state homeland
   security strategies, and other applicable plans. We also addressed the extent to which
   grant funds enhanced the ability of grantees to prevent, prepare for, protect against,
   and respond to natural disasters, acts of terrorism, and other manmade disasters. We
   reviewed approximately $14.5 million in State Homeland Security Program grants
   awarded to Maine during fiscal years 2010 through 2012. Maine did not receive Urban
   Areas Security Initiative grant funds.

   In most instances, the Maine Emergency Management Agency administered its grant
   programs in compliance with applicable Federal, state, and grant requirements, and
   State Homeland Security Program grant funds were spent on allowable items and
   activities. However, Maine could improve its grant management practices by developing
   a formal management process to measure performance, enhancing procurement
   procedures, and obligating grant funds within the required time period. Maine could
   also monitor its subgrantees’ purchases better, enforce property management and
   inventory control requirements, and document employees’ time accurately.

   We made 10 recommendations to the Federal Emergency Management Agency (FEMA)
   which, if implemented, should strengthen program management, performance, and
   oversight. FEMA concurred with all of the recommendations.




www.oig.dhs.gov                               1                                       OIG-14-86

                                             OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Background
   DHS provides Federal funding through the Homeland Security Grant Program (HSGP) to
   help state and local agencies enhance capabilities to prevent, deter, prepare for,
   respond to, and recover from terrorist attacks, major disasters, and other emergencies.
   Within DHS, FEMA is responsible for administering the HSGP. The State Homeland
   Security Program (SHSP) and the Urban Areas Security Initiative fall under the HSGP and
   fund a wide range of preparedness activities. Such activities include planning, training,
   exercises, equipment purchases, management, and administration. Appendix D contains
   more information about the HSGP.

   HSGP guidance requires a state administrative agency to administer and manage grant
   funding awarded under the HSGP. The state administrative agency also allocates funds
   to local, regional, and other state government entities. The Maine Emergency
   Management Agency (MEMA) is the state administrative agency for the SHSP. As such, it
   implements homeland security-related programs and is responsible for managing the
   HSGP according to established Federal guidelines. Maine does not receive Urban Areas
   Security Initiative grant funds. Maine has 6 metro areas, 16 counties, and other local
   jurisdictions that receive SHSP grant funds. In fiscal years (FY) 2010 and 2011, the
   counties, communities, and state agencies competed for SHSP grant funds; metro areas
   were awarded pre-allocated amounts of grant funds. In FY 2012, MEMA developed a
   funding formula to ensure grant funds were spread across Maine, taking into account
   population, historical averages, and numbers of communities in a given county.
   Appendix C contains a flowchart of the grant allocation process.

   During FYs 2010 through 2012, FEMA awarded MEMA approximately $14.5 million in
   SHSP funds as shown in figure 1.

          Figure 1: Maine SHSP Funding Levels, FYs 2010 Through 2012

                                     Maine SHSP Funding for FYs 2010 - 2012
                                $8,000,000
             Dollars Awarded





                                $6,000,000
                                $4,000,000
                                $2,000,000
                                       $-
                                                  2010             2011            2012
                                       SHSP     $6,613,200       $5,137,205      $2,801,316

          Source: DHS OIG analysis of FEMA data



www.oig.dhs.gov                                              2                                OIG-14-86
                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Results of Audit
   In most instances, MEMA administered its grant programs in compliance with applicable
   Federal, State, and grant requirements, and SHSP grant funds were spent on allowable
   items and activities. However, Maine could improve its grant management practices by:

       •	 Developing a formal process to measure progress and improvements in 

          preparedness and its ability to respond to disasters; 

       •	 Complying with Federal and state procurement regulations and documenting
          procurements better;
       •	 Obligating grant funds in a more timely manner;
       •	 Monitoring its subgrantees’ grant-related purchases, activities, and performance
          better;
       •	 Enforcing property management and inventory control requirements; and
       •	 Documenting the time that employees spend on grant-related activities 

          accurately. 


   We were unable to determine the extent to which SHSP grants enhanced Maine’s ability
   to prepare for and respond to disasters and acts of terrorism because the State does not
   have a formal process to measure preparedness.

           State Homeland Security Strategy

           Maine’s homeland security strategy (state strategy) for FYs 2010 through 2012
           included goals and objectives that were linked to the National Priorities and
           mission areas in DHS’ National Preparedness Guidelines, as required by FEMA
           guidance. A MEMA official explained that MEMA did not follow FEMA’s
           guidance, thus the objectives were not always specific, measurable, achievable,
           results-oriented, and time-limited (SMART).

           In July 2005, FEMA released the StatefandfUrbanfAreasfHomelandfSecurityf
           Strategy:fGuidancefonfAligningfStrategiesfwithfthefNationalfPreparednessfGoal.
           According to the guidance, states are to include goals and measurable objectives
           in their strategies that are:

             •	 Specific, detailed, particular, and focused – help identify what is to be 

                achieved and accomplished; 

             •	 Measurable – be quantifiable, provide a standard for comparison, and 

                identify a specific achievable result; 




www.oig.dhs.gov                                 3	                                        OIG-14-86

                               OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


              •	 Achievable – not beyond the ability of a state, region, jurisdiction, or
                 locality;
              •	 Results-oriented – identify a specific outcome; and
              •	 Time-limited – have a target achievement date.

           Of the 56 objectives in Maine’s state strategy for FYs 2010 through 2012, 53 did
           not include all of the required SMART elements. Fifty-one of 56 objectives were
           not measurable or quantifiable, and 43 of 56 were not time-limited. Table 1
           shows some objectives that did not meet SMART criteria.

   Table 1: Examples of Objectives in the State Strategy That Did Not Meet SMART
   Criteria
              Goal                  Objective                     Step(s)                    Deficiency
    Ensure that Maine is      Maine's citizens will    1) Expand public awareness       The objective is not:
    fully capable of          be encouraged to            campaigns to ensure the         • Specific
    preventing a terrorist    adopt a mindset of          message of prevention is        • Measurable
    event while working       homeland                    widespread throughout           • Time-limited
    to reduce the State's     protection.                 the state. (Target Date:
    vulnerability to such                                 ongoing)
    events.                                            2) Develop training
                                                          partnerships with a focus
                                                          on terrorism for all levels
                                                          of Maine's citizens.
                                                          (Target Date: ongoing)
    Ensure that Maine is      Agriculture: Maintain     MEMA will work in               The objective is not:
    fully prepared to         a cadre of agriculture    conjunction with the              • Specific
    respond to any            response team             Maine Department of               • Measurable
    emergency or              members.                  Agriculture to maintain a         • Time-limited
    disaster, including the                             team of veterinarians,
    direct or indirect                                  plant specialists, and
    results of a terrorist                              University researchers to
    event.                                              train and respond to
                                                        agricultural bioterrorism
                                                        events. (Target Date:
                                                        ongoing)
    Ensure that Maine has Use the statewide             Make purchases as               The objective is not:
    the capability to        Recovery Plan to           determined by Recovery            • Specific
    recover quickly from     determine the              Plan. (Target Date:               • Measurable
    any emergency or         additional equipment       ongoing)                          • Time-limited
    disaster including       (if any) necessary to
    direct or indirect       achieve goals of the
    results of a terrorist   Plan.
    event.
   Source: DHS OIG analysis of MEMA data




www.oig.dhs.gov                                         4	                                                 OIG-14-86
                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Without objectives that are SMART, it is difficult for Maine to measure and
           report on improvements in preparedness and to evaluate progress toward
           completing goals and objectives. In addition, Maine is limited in its ability to
           measure how much of an objective has been completed over a given period of
           time, which directly affects monitoring the accomplishment of the objectives.

           In April 2012, FEMA required state and local governments receiving FEMA
           preparedness grants to complete a Threat and Hazard Identification and Risk
           Assessment (THIRA) by December 31, 2012. The THIRA provides a
           comprehensive approach for identifying and assessing risks and associated
           impacts, using the core capabilities identified in the National Preparedness Goal.
           We did not review MEMA’s THIRA process because it was outside the scope of
           our audit work. However, when it updates the THIRA annually, as required,
           MEMA should ensure that it includes SMART goals and objectives.

           Performance Measurement

           According to MEMA officials, MEMA has not developed a formal process to
           measure its performance, including performance measurements and
           benchmarks to evaluate progress and improvements in preparedness and in its
           ability to respond to acts of terrorism, and manmade and natural disasters.
           MEMA officials identified three reasons for not having a formal measurement
           process: insufficient guidance from FEMA; changes to the required measuring
           and reporting tool; and insufficient staffing levels.

           According to DepartmentfoffHomelandfSecurityfStatefandfUrbanfAreafHomelandf
           SecurityfStrategyfGuidancefonfAligningfStrategiesfwithfthefNationalfPreparednessf
           Goal, an objective sets a tangible and measurable target level of performance
           over time against which actual achievement can be compared, including a goal
           expressed as a quantitative standard, value, or rate.

           States need to make certain that they have consistent standards and metrics
           against which to measure progress. Otherwise, Maine subgrantees cannot
           effectively determine whether SHSP funds have enhanced the state’s ability to
           prevent, prepare for, protect against, and respond to acts of terrorism, and
           manmade and natural disasters.




www.oig.dhs.gov                                 5                                       OIG-14-86

                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Compliance with Procurement Requirements


           MEMA and the subgrantees we reviewed did not always follow Federal
           regulations when procuring equipment and services using SHSP funds.
           Specifically, MEMA did not ensure that subgrantees’ procurement policies
           complied with Federal policies, and subgrantees did not properly document
           whether purchased equipment was authorized. MEMA also did not have
           memorandums of understanding (MOU) at the time purchases were made on
           behalf of local jurisdictions.

           MEMA reimbursed grant funds to subgrantees without verifying that their
           procurement policies complied with Federal and state procurement regulations.
           According to the Code of Federal Regulations (CFR), subgrantees may use their
           own procurement procedures provided that procurements conform to
           applicable Federal law. MEMA’s FYs 2010 through 2012 grant guidance also
           allows subgrantees to use either state or local procurement policies for
           purchasing items with SHSP grant funds.

           According to MEMA officials, the agency does not review local procurement
           policies during the grant application or reimbursement process to determine
           whether the policies meet Federal and state requirements. For example, one
           subgrantee contracted to construct a radio tower for $74,500. However, in the
           absence of any local procurement procedures the subgrantee did not acquire the
           required bids. In the grant fund application, the following reason was given for
           not acquiring the required bids, “Because this project is a construction project of
           a radio tower, it is not possible to get vendor quotes. The project needs to be
           designed and put out to bid in order to get figures.” The county director said,
           “There is just one company in town that could help complete the project so we
           gave it to them.” Another subgrantee used local procurement policies to
           purchase a $15,000 online incident reporting system without following state
           procurement requirements for items valued at more than $5,000. In both
           instances, MEMA reimbursed the subgrantees for the purchases even though
           competitive bids were not obtained as required by MEMA and state
           procurement policies. Thus, we identified $89,500 in questioned costs.

           MEMA and its subgrantees did not properly document that equipment
           purchased with SHSP funds was on the FEMA’s Authorized Equipment List (AEL),
           as required. FEMA's grant guidance specifies that “equipment must meet all
           mandatory, regulatory and/or DHS-adopted standards to be eligible for purchase
           using these funds.” The guidance includes 21 allowable equipment categories on
           the AEL. According to MEMA guidance to its subgrantees, when filling out grant

www.oig.dhs.gov                                 6                                        OIG-14-86

                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           applications, jurisdictions must ensure that the items they are requesting are on
           the AEL.

           Of the eight equipment items purchased with grant funds that we reviewed
           during site visits, only one had the required AEL verification in its grant
           application. MEMA officials reviewed grant applications for AEL numbers, but
           acknowledged that, if information was missing, they did not try to obtain it from
           the subgrantee and did not halt requested reimbursements. Although we
           verified that the other seven equipment purchases were on the AEL, subgrantees
           could purchase non-authorized equipment because MEMA approved grant
           applications and reimbursed subgrantees for equipment purchases without
           required AEL documentation.

           MEMA spent SHSP grant funds on behalf of local jurisdictions without required
           written documentation in place. According to the DHSfHomelandfSecurityfGrantf
           ProgramfGuidancefandfApplicationfKit, states may retain some grant funds to
           expend on behalf of local units of government with the local unit’s written
           consent specifying the amount of funds to be retained and their intended use. In
           FYs 2010 through 2012, MEMA spent grant funds on behalf of local jurisdictions
           without MOUs. On June 19, 2013, MEMA created MOUs covering FYs 2010
           through 2012 and provided them to the 16 counties. However, during our audit,
           6 of 16 county Emergency Management Agency directors had not signed the
           MOUs, and MEMA did not have signed MOUs with the six metro areas. Without
           completed MOUs, grant funds could potentially be spent incorrectly and may not
           reflect the highest priority of the receiving jurisdiction.

           Obligation of Grant Funds

           For FYs 2010 through 2012, MEMA did not obligate SHSP grant funds to the
           subgrantees within 45 days as required by FEMA, and FEMA did not verify
           whether MEMA had done so. A MEMA official believed that the pre-award letter,
           which informs the subgrantee how much funding it will receive, complied with
           the 45-day rule, but grant funds are actually obligated when the subgrantee
           receives the award letter.

           FEMA HSGP guidance requires state administrative agencies to obligate funds
           awarded to subgrantees within 45 days of FEMA’s award date. This includes the
           following requirements:

             •	   There must be some action to establish a firm commitment on the part of
                  the awarding entity.

www.oig.dhs.gov                                7	                                       OIG-14-86

                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


             •	   The action must be unconditional (i.e., no contingencies for availability of
                  funds) on the part of the awarding entity.
             •	   There must be documentary evidence of the commitment.
             •	   The award terms must be communicated to the official grantee.

           In FYs 2010 through 2012, MEMA sent pre-award letters notifying subgrantees
           that grant funds were available. MEMA’s metro areas were allocated a
           predetermined amount; the counties and other local jurisdictions went through
           a competitive process. All entities had to submit a grant application and/or a
           budget plan. After MEMA approved these documents, an award letter was sent
           to the entities, which officially obligated the grant funds. See appendix C for a
           flowchart of this process.

           Contrary to the MEMA official’s beliefs, grant funds were not in compliance with
           the 45-day rule when the pre-award letters were received by the subgrantees.
           Instead, grant funds were not obligated until after MEMA approved and sent the
           subgrantee an official award letter, specifying that the funding would be
           available from the date of the letter.

           Table 2 shows the number of days it took MEMA to obligate funds to the four
           subgrantees we selected for our fieldwork. In FYs 2010 through 2012, it took
           MEMA 85 to 726 days to obligate funds to the subgrantees. As of September
           2013, one subgrantee had yet to receive an official award letter from MEMA to
           obligate funds for a FY 2011 grant, and two subgrantees had not received award
           letters for FY 2012 grants. For those instances in which the official award letter
           had yet to be received, we used the end of our fieldwork, September 20, 2013,
           as the date used to calculate the number of days to obligate.




www.oig.dhs.gov                                 8	                                       OIG-14-86

                           OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

                        Table 2: Timeliness of Obligations to Subgrantees, FYs 2010-2012
                                                                                Obligation      Number of
                                                               FEMA/State
                                                                               Date (Official   Days State
        Subgrantee               Grant Purpose                  Agreement
                                                                                  Award          Took to
                                                                   Date
                                                                                  Letter)        Obligate
      FY 2010
        Cumberland                   Exercise                  9/17/2010        9/10/2012          726
        Portland                Fire Department                9/17/2010        7/11/2012          665
        Bangor                  Fire Department                9/17/2010        2/10/2012          514
        Cumberland                  Planning                   9/17/2010        2/3/2011           141
        Waldo                       Planning                   9/17/2010        2/3/2011           141
                      VHS Repeaters and Generator and
                                                               9/17/2010        1/11/2011          118
        Cumberland                   Training
                        Transfer Switch, Base Stations,
                                                               9/17/2010        1/11/2011          118
        Waldo        Exercise, Generator, and Radio Tower
      FY 2011
        Bangor                    Fire Department              10/6/2011       Not Received        716
        Portland                  Fire Department              10/6/2011        4/19/2013          562
        Waldo                    Mapping Software              10/6/2011        2/14/2012          132
        Cumberland                     Planning                10/6/2011        2/10/2012          128
      FY 2012
        Bangor                    Fire Department              8/16/2012       Not Received        401
        Portland                  Fire Department              8/16/2012       Not Received        401
        Cumberland       Emergency Management Agency           8/16/2012        7/3/2013           322
        Waldo            Emergency Management Agency           8/16/2012        11/8/2012           85
     Source: DHS OIG analysis of MEMA data

           As a result of MEMA’s delay in obligating funds, subgrantees may not have
           sufficient time to use grant funds to meet their approved needs. This could result
           in additional funds that would need to be deobligated when FEMA grant
           agreements for FYs 2010 through 2012 expire.

           Monitoring of Subgrantees

           MEMA neither sufficiently monitored its subgrantees to ensure they complied
           with applicable Federal requirements, nor did it measure subgrantee
           performance adequately. Although MEMA performed onsite financial audits of a
           sample of various Federal grant-related purchases during FYs 2010 through
           2012, we could not determine whether the agency audited a sufficient number
           of SHSP subgrantees. In addition, MEMA’s onsite audits did not include
           programmatic monitoring of grant-related purchases, activities, and
           performance.




www.oig.dhs.gov                                     9                                            OIG-14-86

                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           The CFR, the Office of Management and Budget, FEMA, and MEMA all provide
           guidance and requirements for subgrantee monitoring. Specifically, according to
           44 CFR §13.40, MonitoringfandfReportingfProgramfPerformance, grantees are to
           manage the day-to-day operations of grant- and subgrant-supported activities
           and ensure that grant recipients comply with applicable Federal requirements
           and achieve program performance goals.

           The Office of Management and Budget’s Circular A-133, AuditsfoffStates,fLocalf
           Governments,fandfNon-ProfitfOrganizations, Compliance Supplement, Part 3 –
           CompliancefRequirements,fM.fSubrecipientfMonitoringfalso requires grantees to
           monitor subgrantees’ use of Federal awards through reporting, site visits, regular
           contact, or other means to provide reasonable assurance of compliance with
           laws and regulations. FEMA’s DHSfHomelandfSecurityfGrantfProgramfGuidancef
           andfApplicationfKit and MEMA’s financial standard operating procedures both
           include monitoring guidance to ensure compliance with applicable requirements.

           During FYs 2010 through 2012, MEMA performed onsite financial audits of a
           sample of Federal grant purchases and related documentation every year. Yet,
           we were unable to determine how many SHSP grant-related purchases were
           included in these audits because MEMA did not track which type of grants it
           monitored. MEMA’s financial standard operating procedures require onsite
           monitoring of no less than 10 percent of all Federal grant-related purchases.
           MEMA officials did not document how it selected subgrantees to monitor;
           therefore, they were unable to provide information on which subgrantees
           received SHSP funding or the total percentage of SHSP subgrantees they audited.
           MEMA officials said they were unaware that they had to document their
           methodology for selecting subgrantees. Without knowing which SHSP
           subgrantees it audited, MEMA could not ensure that it adequately monitored
           SHSP subgrantees, or that SHSP subgrantees were complying with grant-related
           requirements.

           MEMA’s onsite audits of subgrantees were also limited to review of purchases
           and supporting documentation. MEMA did not conduct programmatic reviews of
           grant-related purchases, activities, and performance, as required by Federal
           guidance, to ensure subgrantees’ compliance with Federal requirements and
           achievement of performance goals. According to MEMA officials, they did not
           have enough staff to monitor subgrantees’ performance effectively. Unless
           MEMA monitors subgrantees as required, it cannot ensure they are complying
           with laws and regulations and their grant-related activities are improving their
           ability to prepare for and respond to acts of terrorism, and manmade and
           natural disasters.

www.oig.dhs.gov                                10                                       OIG-14-86

                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Property Management and Inventory Controls


           MEMA did not follow Federal and state inventory control policies for grant-
           funded equipment, and subgrantees did not always have inventory control
           policies in place. In addition, subgrantees did not include all required information
           on inventory lists and did not inventory equipment as required. Without
           adequate inventory controls, MEMA and its subgrantees could not ensure that
           equipment purchased with SHSP funds was adequately safeguarded to prevent
           its misuse, loss, damage, or theft.

           Both the CFR and MEMA have inventory control procedures. According to 44 CFR
           §13.32, for grant-funded equipment, states are to maintain property records and
           develop a control system to ensure adequate safeguards to prevent loss,
           damage, or theft of property. In addition, MEMA’s financial standard operating
           procedures require that it maintain an electronic inventory of all fixed assets in
           the state accounting system, called the Advantage Information System.
           According to MEMA’s procedures, inventory records must include specific
           information about assets, such as acquisition cost; make; model; serial number;
           location; useful life; and the grant, contract, or fund to which the asset is
           assigned. The CFR also requires property records to include certain elements,
           such as a description of the property, a serial number or other identification
           number, the source of property, and any ultimate disposition data.

           MEMA officials were unable to provide an inventory list from the Advantage
           Information System. Instead, MEMA had a property list of the equipment it
           purchased with SHSP funds, and it tracked subgrantee equipment that it audited
           (valued at $5,000 or more) on a spreadsheet, which was not SHSP-specific or all-
           inclusive. Neither the property list of MEMA-purchased equipment nor the
           spreadsheet used to track subgrantee equipment included all of the required
           data elements. MEMA officials reported that they were unaware they needed to
           implement and maintain inventory controls for property purchased with SHSP
           funds, although this requirement is included in MEMA’s standard operating
           procedures.

           A review of four subgrantees’ property records showed that not all complied
           with Federal regulations. Specifically, none of the four subgrantees had an
           inventory control policy that included the CFR requirement to maintain property
           records. Based on subgrantee statements three of the four did not conduct a
           physical inventory of property at least once every 2 years as required by the CFR.
           This occurred because MEMA did not provide the subgrantees with inventory
           control requirements or guidance; therefore, the subgrantees were not aware

www.oig.dhs.gov                                11                                        OIG-14-86

                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


           that they needed to implement and maintain inventory controls for property
           purchased with SHSP funds.

           One of the four subgrantees did not maintain an inventory list of any kind, and
           the other three subgrantees maintained an inventory list of their equipment, but
           the lists were not SHSP-specific. The three subgrantees’ inventory records did
           not include all of the CFR-required data elements.

           Documenting Employees’ Time

           According to a MEMA official, MEMA staff who work on several different grants
           did not allocate the exact amount of time spent working on SHSP grants.
           Because there are no records of the exact time that MEMA staff spent on various
           grants, we could not determine whether SHSP grant funds allocated for salaries
           were accurate, or were undercharged or overcharged. Furthermore, FEMA did
           not approve the system that MEMA uses to allocate salaries, as required by
           Federal regulations.

           According to the CFR, personnel activity reports or equivalent documentation
           must, among other things, reflect an after-the-fact distribution of the actual
           activity of each employee and account for the total activity for which each
           employee is compensated. Budget estimates or other distribution percentages
           determined before services are performed do not qualify as support for charges.
           Also according to the CFR, systems other than activity reports may be used to
           allocate salaries and wages, but they must be approved by the cognizant agency.

           Under MEMA’s system, staff members allocate their time according to
           predetermined percentages based on their job descriptions and the results of
           annual budget reviews. For example, one person might allocate 75 percent of his
           or her time to the HSGP and 25 percent to Emergency Management
           Performance Grants; another person might allocate 100 percent to HSGP.
           According to one MEMA official, allocating the exact amounts of time would be
           time consuming and not cost beneficial. However, the official acknowledged that
           because the time charges are just estimates, during each pay period, a person
           could actually spend less than the predetermined allocated percentage of time
           working on certain grants. As a result, SHSP grant funds could be funding other
           grant or state activities.




www.oig.dhs.gov                               12                                      OIG-14-86

                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


           Recommendations

           We recommend the FEMA Assistant Administrator, Grant Programs Directorate:

           Recommendation #1:

           Develop and provide states with consistent and comprehensive measurement
           tools that include baselines for measuring and demonstrating progress toward
           enhancing their level of preparedness through the use of SHSP grant funds.

           Recommendation #2:

           Require MEMA to verify that subgrantee procurement procedures are in
           compliance with Federal and state procurement regulations.

           Recommendation #3:

           Review and remedy the $89,500 in questioned costs for the two purchases made
           by subgrantees that did not comply with Federal and state procurement policies,
           returning to FEMA the cost of any unallowable expenditures.

           Recommendation #4:

           Require MEMA to verify and document that equipment purchased by
           subgrantees is on the Authorized Equipment List, prior to reimbursement.

           Recommendation #5:

           Require MEMA to obtain written consent from local jurisdictions prior to
           spending funds on their behalf.

           Recommendation #6:

           Require MEMA to review and update its obligation and approval process to
           identify ways to shorten the process so subgrantees have sufficient time to
           procure and spend their grant funds.

           Recommendation #7:

           Require MEMA to document the methodology it uses to determine which
           subgrantees will be reviewed annually. This documentation should provide the

www.oig.dhs.gov                               13                                         OIG-14-86

                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           total percentage of Federal funds that will be audited, as well as the percentage-
           breakdown of each Federal grant, including SHSP grant funding.

           Recommendation #8:

           Require MEMA to conduct and document onsite monitoring of subgrantee
           programs, functions, and activities to ensure compliance with applicable Federal
           requirements and progress toward achieving performance goals.

           Recommendation #9:

           Require MEMA to develop and implement procedures to ensure that all SHSP
           inventory records comply with the Code of Federal Regulations.

           Recommendation #10:

           Require MEMA to change its time allocation system to record the actual activity
           of staff, or get approval from FEMA on its current time allocation system.

           Management Comments and OIG Analysis

           FEMA and MEMA provided comments on the draft of this report. Appendix B
           includes a copy of the responses in their entirety.

           Management Comments to Recommendation #1. FEMA concurred with the
           recommendation and has established and implemented a system to help states,
           territories, and urban areas establish measurable goals and objectives that will
           enable them to systematically measure improvements in first responder
           capabilities and statewide preparedness.

           FEMA said that as part of the National Preparedness System, it has developed
           and is implementing performance assessments that measure progress toward
           achieving the National Preparedness Goal. According to FEMA, its strategy is to
           base assessments on the principles that the Nation needs to understand existing
           risks, use those risks to determine required capabilities, assess current capability
           levels against those requirements, and track its progress in closing identified
           capability gaps.

           According to FEMA, on August 29, 2013, it released a consistent methodology for
           determining risks in the ComprehensivefPreparednessfGuidef201:ffThreatfandf
           HazardfIdentificationfandfRiskfAssessmentf(THIRA)fGuidefSecondfEdition. The


www.oig.dhs.gov                                 14                                        OIG-14-86

                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           guide details a four-step process that jurisdictions can use to achieve desired
           outcomes and capability targets for each of the core capabilities. According to
           FEMA, this approach allows a jurisdiction to establish its own capability targets
           based on the risks it faces. On December 31, 2012, states, territories, and major
           urban areas receiving HSGP funds were required to submit their THIRAs to
           FEMA. Also in 2012, states and territories were required to submit state
           preparedness reports (SPR) to FEMA. Lastly, per FEMA, the THIRA and SPR
           results highlight gaps in capability and the progress of grantees in closing those
           gaps over time. The results of the capability assessments are reported annually
           in the National Preparedness Report.

           According to FEMA, the next component of the National Preparedness System is
           to build and sustain capabilities. This step ties grant investments directly to
           needs and shortfalls. Grantees address documented capability requirements and
           gaps in their grant applications. Within the investment justifications submitted in
           the grant application, grantees must identify the core capability, the priority of
           the core capability, and the capability gaps noted in their SPR that investment
           intends to address. FEMA officials said they verify completion of the
           investment/projects through programmatic monitoring and the Biannual
           Strategy Implementation Report.

           FEMA officials said they addressed OIG’s recommendation for states to establish
           SMART goals and objectives to systematically measure improvements in first
           responder capabilities and statewide preparedness by requiring use of a set of
           tools including the THIRA, SPR, and investment justifications.

           OIG Analysis. We consider FEMA’s corrective actions to be responsive to the
           recommendation. The recommendation is considered resolved and closed. We
           did not include the enclosures to FEMA’s response—Maine’s THIRA and its SPR—
           in appendix B because they were too large and did not affect our analysis and
           conclusion.

           Management Comments to Recommendation #2. FEMA concurred with the
           recommendation and will require MEMA to develop and implement a plan to
           verify that subgrantee procurement procedures are in compliance with 44 CFR
           §13.36 Procurement. The estimated completion date is June 20, 2014.

           MEMA concurred with the recommendation. According to MEMA, for FY 2014
           grants and all future grant awards, it will amend its guidance to ensure that
           subgrantees adhere to Federal and state purchasing guidelines.



www.oig.dhs.gov                                15                                        OIG-14-86

                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


           OIG Analysis. We consider FEMA’s proposed corrective action to be responsive
           to the recommendation. The recommendation is considered resolved and will
           remain open pending completion of the corrective action.

           Management Comments to Recommendation #3. FEMA concurred with the
           recommendation and will require MEMA to provide supporting documentation
           permitting FEMA to determine whether the questioned costs for the two
           purchases made by subgrantees complied with 44 CFR §13.36 Procurement.
           Should MEMA be unable to provide such supporting documentation, FEMA will
           require the recoupment of any disallowed costs. The estimated completion date
           is June 20, 2014.

           MEMA disagreed with these questioned costs. According to MEMA, the
           subgrantees were following guidance current for the grant years in which they
           were spending funds. MEMA believed the local purchasing procedures were
           sufficient. In its response to recommendation #2, MEMA said it would ensure
           that future grant guidance contains requirements to follow Federal and state
           purchasing procedures.

           OIG Analysis. We consider FEMA’s proposed corrective action to be responsive
           to the recommendation. The recommendation is considered resolved and will
           remain open pending the completion of the corrective action. We did not include
           the enclosure to MEMA’s response—TimelinefandfRationalefforfPurchasingf
           Decisions—in appendix B because it included names and possible fiduciary
           information.

           Management Comments to Recommendation #4. FEMA concurred with the
           recommendation and will require MEMA to develop policies and procedures to
           ensure and document that equipment purchased by subgrantees is on the AEL,
           prior to reimbursement. The estimated completion date is June 20, 2014.

           MEMA concurred with this recommendation and stipulated that it is already
           being met. According to MEMA, grant applications and invoices from
           subgrantees pass through multiple layers of review at MEMA before being
           approved. Additionally, items purchased and reimbursed under the program are
           reviewed by MEMA staff during the subgrantee monitoring process, either in
           desk review or in a physical visit to the subgrantee’s location.

           OIG Analysis. We consider FEMA’s proposed corrective action to be responsive
           to the recommendation. The recommendation is considered resolved and will
           remain open pending the completion of the corrective action.

www.oig.dhs.gov                               16                                      OIG-14-86

                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Management Comments to Recommendation #5. FEMA concurred with the
           recommendation and will require MEMA to execute MOUs with local
           jurisdictions prior to spending funds on their behalf and provide copies of the
           MOUs to FEMA. The estimated completion date is June 20, 2014.

           MEMA concurred with this recommendation. MEMA noted that it corrected this
           discrepancy on June 19, 2013, with the signing of MOUs by County Emergency
           Management Agency directors who agreed to the funding strategy of “statewide
           shared programs.” MEMA also reported that it has already executed a similar
           MOU for FY 2013 funds.

           OIG Analysis. We consider FEMA’s proposed corrective action to be responsive
           to the recommendation. The recommendation is considered resolved and will
           remain open pending the completion of the corrective action.

           Management Comments to Recommendation #6. FEMA concurred with the
           recommendation and will require MEMA to review and update its obligation and
           approval process to identify ways to shorten the process so subgrantees have
           sufficient time to procure and spend grant funds. The estimated completion date
           is June 20, 2014.

           MEMA disagreed with this recommendation. MEMA maintained it has
           communicated its current “pre-award notification letter” procedure to FEMA
           program staff through annual monitoring visits for as many years as the practice
           has been in place, and not once has the procedure been questioned. In addition,
           MEMA said that FEMA requires documentation of this 45-day pass-through
           period through filing of the Initial Strategy Implementation Plan. MEMA has filed
           each year’s Initial Strategy Implementation Plan on time, and FEMA program
           staff have not questioned the manner in which funding is released to
           subgrantees.

           OIG Analysis. We consider FEMA’s proposed corrective action to be responsive
           to the recommendation. The recommendation is considered resolved and will
           remain open pending the completion of the corrective action.

           Management Comments to Recommendation #7. FEMA concurred with the
           recommendation. FEMA will require MEMA to develop and implement a
           subgrantee monitoring plan that complies with 44 CFR §13.40 and includes
           documentation of the methodology it uses to determine which subgrantees will
           be monitored. This documentation should provide the total percentage of
           Federal funds that will be audited, as well as the percentage-breakdown of each


www.oig.dhs.gov                                17                                        OIG-14-86

                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Federal grant, including SHSP grant funding. The estimated completion date is
           June 20, 2014.

           MEMA concurred with this recommendation. According to MEMA, subgrantee
           monitoring is the historic weakness of its program, but MEMA officials believe
           they provide adequate controls throughout the application, review, awarding,
           and reimbursement processes, which limits the risk of improper spending by
           subgrantees. MEMA officials said they have made attempts to increase grant
           staffing through state budget processes, but have not been successful. MEMA
           officials contended that they conduct the best monitoring they can, with the
           limited resources available.

           OIG Analysis. We consider FEMA’s proposed corrective action to be responsive
           to the recommendation. The recommendation is considered resolved and will
           remain open pending the completion of the corrective action.

           Management Comments to Recommendation #8. FEMA concurred with the
           recommendation and will require MEMA to develop and implement a
           subgrantee monitoring plan that complies with 44 CFR §13.40 and ensures
           oversight of programs, functions, and activities, as well as progress toward
           achieving performance goals. The estimated completion date is June 20, 2014.

           MEMA concurred with this recommendation, for the same reasons as stated
           previously.

           OIG Analysis. We consider FEMA’s proposed corrective action to be responsive
           to the recommendation. The recommendation is considered resolved and will
           remain open pending the completion of the corrective action.

           Management Comments to Recommendation #9. FEMA concurred with the
           recommendation and will require MEMA to develop and implement policies and
           procedures to ensure that all SHSP inventory records comply with 44 CFR §13.32
           Equipment. The estimated completion date is June 20, 2014.

           MEMA partially concurred with this recommendation. MEMA recognizes that
           inventory controls are inadequate as required by the CFR; however, it questions
           the level of detail required by grant regulations and the value of collecting and
           reporting this information to FEMA. MEMA said that it will develop a basic
           inventory tracking sheet that subgrantees will be required to complete and file
           with the agency.



www.oig.dhs.gov                                18                                       OIG-14-86

                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


           OIG Analysis. We consider FEMA’s proposed corrective action to be responsive
           to the recommendation. The recommendation is considered resolved and will
           remain open pending the completion of the corrective action.

           Management Comments to Recommendation #10. FEMA concurred with the
           recommendation and will require MEMA to provide evidence that its time
           allocation system is in compliance with 2 CFR Part 225. The estimated
           completion date is June 20, 2014.

           MEMA disagreed with this recommendation. According to MEMA, it accounts for
           employee time using an online accounting system, which includes multiple
           project codes that employees can choose to record their time. According to
           MEMA, FEMA has never raised any issues with this method. Where multiple
           FEMA grants have complementary and often overlapping, allowable activities,
           MEMA accounts for employee salaries and benefits using a percentage of time
           spent working for each program. This is done instead of requiring employees to
           record time spent on each grant to the fraction of an hour. MEMA believes this
           adequately ensures that employees are working and being paid for by their
           appropriate grant program.

           OIG Analysis. We consider FEMA’s proposed corrective action to be responsive
           to the recommendation. The recommendation is considered resolved and will
           remain open pending the completion of the corrective action.




www.oig.dhs.gov                              19                                     OIG-14-86

                             OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff
   2007, requires DHS OIG to audit individual states’ management of SHSP and Urban
   Areas Security Initiative grants. This report responds to the reporting requirement for
   Maine.

   The audit objectives were to determine whether the State used SHSP grant funds in
   accordance with the law, program guidance, homeland security strategies, and other
   applicable plans; and the extent to which funds awarded enhanced the ability of
   grantees to prevent, prepare for, protect against, and respond to natural disasters, acts
   of terrorism, and other manmade disasters. The scope of this audit included about $14.5
   million in SHSP grants awarded for FYs 2010 through 2012 as shown in table 3.

   Table 3: Maine SHSP Awards, FYs 2010 Through 2012
              Grant Program                FY 2010      FY 2011      FY 2012         Total
    State Homeland Security Program        $6,613,200   $5,137,205   $2,801,316   $14,551,721
   Source: DHS OIG analysis of FEMA data

   The HSGP encompasses several interrelated Federal grant programs as described in
   appendix D. We only reviewed the SHSP funding of equipment and programs for
   compliance during this audit.

   Our audit methodology included work at MEMA and several subgrantees located
   throughout Maine. To achieve our audit objective, we analyzed data, reviewed
   documentation, and interviewed key state and local officials directly involved in the
   management and administration of the SHSP. We reviewed the plans developed by the
   State to improve preparedness and respond to hazards.

   We met with four subgrantees and MEMA during our audit fieldwork and judgmentally
   selected and reviewed FYs 2010 through 2012 files of those SHSP subgrantees. These
   four subgrantees included the following two counties and two metro areas:


www.oig.dhs.gov                                 20                                      OIG-14-86

                          OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


       •   Bangor Metro Area
       •   Cumberland County
       •   Portland Metro Area
       •   Waldo County

   The four local subgrantees accounted for about $1.8 million in grant funds, totaling 12
   percent of all local SHSP grant funds for FYs 2010 through 2012. MEMA accounted for
   $4.4 million in grant funds, totaling 31 percent of all SHSP grant funds.

   In addition to the data tests described above, we judgmentally selected equipment from
   subgrantee records and verified the existence of the equipment.

   We relied on Maine’s Advantage Information System for data on the grant funds
   awarded in FYs 2010 through 2012. We conducted limited tests on this data and
   compared it with source documentation to ensure that the data were sufficiently
   reliable to be used in meeting our audit objective.

   We conducted this performance audit between May 2013 and September 2013
   pursuant to the InspectorfGeneralfActfoff1978, as amended, and according to generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objectives.




www.oig.dhs.gov                               21                                       OIG-14-86

                                   OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report
                                                                                           l.i.S. fh.'llartmt.nl nf Hnmt.laRd   Seetuit~,:
                                                                                           WashingLc'n. lK 2l)4'!2




                                                                                         FEMA
                                                       JAN 2 7 201-l

                  ME\10RANDUM FOR:              Mark Bell
                                                Acting Assistant Inspector General tor Audits
                                                Office of Inspector Geneml (010)
                                                Dcpmtmcnt of Homeland Security

                  FROM:                         David J. Kaufman
                                                i\ssociate Administrator H1r
                                                Policy, Program Analysis and .International Affairs

                  SlJBJECT:                     Federal Emergency Management Agency (FEMA) Respon~e to
                                                OIG's Draft Report "Maine's Manag,·mcnt of State Homeland
                                                Security Program (SHSP) Grants Awarded During .Fiscal Years
                                                2010 Through 2012'' OIG Project No. 13-139-AUD-FEMA


                  Thank you for the opportunity to comment on your Draft Report, '·Maine's Management of State
                  Homeland Security Program Grants Awarded During Fiscal Years 2010 Through 2012" OIG
                  Project No. 13-139-AU lJ-FE\1A. The findings in the report will be used to strengthen the
                  effectiveness and efflciency of how we execute and measure our program. We recognize the
                  need to continue to improve the process, including addressing the recommendations raised in this
                  report. The following arc our written response to the ten ( l 0) recommendations for
                  implementation, of which, FEMA concurs with all ten (I 0) recommendations.

                  Recommendation #l: We recommend tlte FEMA Assistant Administrator, Grant Programs
                  Directorate to develop and provide States w1th consistent and comprehensive measurement tools
                  that include baselines for measuring and demonstrating progress toward enhancing their level of
                  preparedness through the use of SHSP grant funds.

                  Response: Concur, The integrated preparedness system has its basis in the strategic plan and
                  planning process. As part of this plan and process, O!G has recommended that FEMA help
                  states, territories and urban areas establish measurable goals and objectives that will enable them
                  to systematically measure improvements in tirst respcnder capabilities and statewide
                  preparedness. FEMA has established and implemented a system to do exactly that, as described
                  below.

                  Measuring Grant Effectinness
                  As par t o f' the National Preparedness System , FFMA has developed and is implementing
                  performance assessments that measure progress toward achieving the National Preparedness
                  Goal. FEMA's strategy is to base assessments on the principles that the Nation needs to

                                                                                          www.l~nutgov




www.oig.dhs.gov                                                 22                                                                           OIG-14-86

                                   OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




                  understand l'xisting risks, usc those risks to determine r,.:quin;d capahilit.ie:s, assess current
                  capability levd> against those requirements, and track its progress in closing identified capability
                  gups.

                  On August 29. 2013, FEMA rck:a~cd a consistem methodology for determining risks in the
                  Comprehensive Preparedness Guide 201: Threat and !Iazard Identification and Risk Assessment
                  (TIIIRA) Guid~: (CPG-201) Second Edition. CPG-20.1 details a fottr-stcp process jurisdictions
                  can use to adueve desired outcomes and capability targets for each of the core capabilities. This
                  approach allows n jmisdiction to establish its own capability targets based on the risks it faces.

                  On December 31, 2012, states. territories, and major urban areas receiving Homeland Security
                  Grant Program (HSGP) funds were rcqllired to submit their TlllRAs to FEMA. Once each
                  jurisdiction has determined capability targets through the TI liRA procc~s, it estimates its current
                  capability levels against those targets. Also in 2012, states and territoncs were required to
                  submit State Preparedness Reports (SPRs) to FEMA. TI1c THIRA anu SPR proces;;es are
                  scalable lo allow sub-jurisdictions, sub-grantees and subject matter experts to provide input to
                  the state or territory. In conjunction, the THIRA results anti the SPR identify capability needs
                  and gaps. The TlTIRA and SPR results highlight gaps in capability and the progress of grantees
                  in closing those gaps over time. FEMA reports the results of the capability assessments annually
                  in the National Preparedness Report (Nl>R).

              Sustaining, Building and Dclivcrin~ Capabilities
              Having estimating capabiliTy teqnircments, the next component of the National Preparedness
              System ts to build and sustain capabilities. This step ties grant investments directly to needs and
              shortfalls. Clmntees address documented capability requirements and gaps in their grant
              applicat10ns. Within the Investment Justifications (IJ) submitted in the grant application.
              gr~ntces must specifically identify the core capability or capabilities, the priority of the core
              capability as well as the capability gaps noted in their SPR that investment intends to address. In
              addition. grantees must identify the speciiic outcomc(s) of each investment. FEMA verities
              completion of the:: investment/projects through its programmatic monitoring and the Biannual
              Strategy Implementation Report (BSIR). Since the period of pcrfunnancc J(Jr the HSGP is two
              years, a lime limit is set for completion of the project once it is tunded.

              FEMA addressed the OIG recommendation for States to establish S.MART goal5 and objectives
              that will enable states and territories to systematically measure improvements in first responder
              capabilities and statewide preparedness by requiring states to usc a set of tools including the
              THIRi\, SPR, and IJs. Strategy updates arc encouraged but not required as the 'ITIIRA. SPR,
              and IJ methodology provide the goals and assessment of progress against those goals.

              Based on this in1ormation, FEMA requests that this rccommcnualion he ;csolvcd nnd closed.

                  Rewmmendation #2: We recommend the FEMA Assistant Administrator, Grant Programs
                  Directorate to require Maine Emergency Management Agency (MEMA) to verify that
                  subgrantcc procurement procedures are in compliance with Federal and State procurement
                  regulations.




                                                                  2




www.oig.dhs.gov                                                  23                                                      OIG-14-86

                                   OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




                  R~sponsc; Concur; The Assistant A.dmini~tra.tor, Granll'rograrns Directorate, will require
                  MEMA to develop and implement a plan to verify that subgrantcc procurement procedures arc in
                  compliance with 44 CFR 13.36 Procurcrm:nl.

                  FEMA requests that this rccommendat.ion be resolved and open pending completion of the
                  correcti vc action plan.

                  Estimated Completion Date (ECJ}); June 20, 2014

                  Uccommendation #3; We recommend the FEMA Assistant Administr?.tor. Grant Programs
                  D.irectorate to review and r~;.1nedy the questioned costs for the two pmchascs made by
                  subgrantccs that did not comply with Federal and State proeurement policies, returning to FEMA
                  the cost of <my unallowabl.e expenditure.

                  Response; Concur: The Assistant Administrator, Grant Program~ Directorate, will require    that
                  I\l EMA provide supporting documentation pennitting FEMA to determine whether the
                  questioned costs for the two purchases made by subgrantec~ complied with 44 C:FR 13 36
                  Procurement. Should MEMA be unable to provide such supporting documentation. FEMA will
                  require the recoupment of a ny disallowed costs.

                  FEMA reque~ls that this recommendation be resolved and open pending completion of the
                  corrective actwn plan.

                  Estimated Completion Date (ECD); June 20. 2014

                  Recommcndati{)n #4: We recommend the FEMA Assistant Administrator, Grant Programs
                  Directorate to require MEMA to verity and document that equipment purchased by subgrantees
                  is on the Authori.:etl Equipment I .ist, prior to reimbursement.

                  Response: Concur: The Assistant Administrator, Grant Programs Directorate, will require
                  MEMA to develop policies and procedures to ensure and documem that equipment purchased by
                  subgrantees is on the Authorized Equipment List, prior to reimbursement.

              FEMA requests that this recommendation be resolved and open pending completion of the
              corrective action plan.

              Estimated Completion Date (ECD): June 20, 2014

                  Recnmml'ndation #5: We recommend the FEMA Assistant Administrator, Grant Programs
                  Directorate to require MEMA to obtain written consent from local jurisdictions prior to spending
                  funds on their behalf.

              Response: Concur: The Assistant Administrator, Grant Programs Directorate, will require
              ME?vtA to exel:ute memorandums of understanding with local jurisdictions prior to spending
              funds on their behalf and provide copies of same to FEMA.




www.oig.dhs.gov                                                24                                                    OIG-14-86

                                   OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




                   FEMA requests that th1s recommendation be resolved and open pending completion of the
                   corrective action plan.

                   Estimated Completion Date (ECD): June 20, 2014

                   Re<!ommendotion #6: We recommend the FEMA AssistanT Administrator, Grant Programs
                   Directorate to req uire ME.'vfA to review and update its obligation zmd approval process tn
                   rdentify ways to shorten the process so suhgramees have sufficient time to procure and spend
                   t.heir grant funds.

                  Response: Concur: The Assistant Administrator, Orzu1t Programs Directorate, will require
                  MEMA tu revi ew and update its obligation and approval pmccss to identify ways tu shorten the
                  process so subgrantec;s have sufficient time lo procure and spend grant funds.

                  FEMA requests that tl1is recommendation be resolved and open pending completion of the
                  corrective action plan.

                  Estimated Completion Date (ECD): June 20,2014

                  Recommendation #7: We recommend the FEMA Assist;mt Administrator. Grant Programs
                  Directorate to require MEMA to document the methodology it uses to d'-ierminc which
                  sub grantees will be reviewed annually. This clocumentation should provide the total percentage
                  of Federal funds that w1ll be audited, as well as the percentage-breakdown of each Federal grant,
                  including SHSP grant funding.

                  Response: Concur: The 1\ssistant Administrator, Grant Programs Directorate, will require
                  MEMA to develop and implement a subgrantce monitoring plan that complies with44 CFR
                  13.40 and includes documentation of the methodology it uses to determine which subgranlces
                  will be monitored. This documentation ~buuld provide the total percentage of Federal .ti.mds that
                  will he ~t1dited, as we!.! as the percentage-breakdown of each rederal gwnt, includit1g SHSP
                  grunt funding.

              FEMA requests that this recommendation be resolved and open pending completion ofthc
              corrective action plan.

              Estimated Completion Date (ECD): June 20, 2014

              Recommendation #8; We recommend the FEMA Assistant Administrator, Grant Programs
              Directorate to require MEMA to conduct Md document onsite monitoring of subgrante.e
              programs, functions, and at.:tivi ties to ensure compliance with. applicable Federal requirements
              and progress toward achieving performance goals.

              Response: Concur: The Assistant Administrator, Grant Programs Directorate, will require
              MEMA to develop 2nd implement a subgrantee monitoring plan that complies w ith 44 CFR
              13.40 and ensures oversight over program>, functions, and activities a~ well as progress toward
              achieving performance goals.



                                                                 4




www.oig.dhs.gov                                                 25                                                    OIG-14-86

                                   OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




                  13.40 and ensures oversight over programs, functions, and activities as well as progress toward
                  achieving performance goals.
                  FEMA rcqncsts that this recommendation be resol vcd and open pending completion of the
                  corrective action plan.

                  Estimated Completion Date (ECD): June 20, 2014

              .Recommendation #9: We recommend the FEMA Assistant Administrator, Grant Programs
              Directorate to rcqt1ire MEMA to develop and implement procedure~ to ensure that all SHSP
              inventory records comply with the Code of Federal Regulations.

              Response: Concur: The Assistant Administrator, Grant Programs Directorate, wili require
              MEMA lo develop ami implement policies and procedures to ensure that all SHSP inventory
              records comply with 44 CFR 13.32 Equipment.

              FEMA requests that this recommendation be resolved and open pending compklion ufthc
              correcth:e action plan,

              Estimated Completion Date (ECD): June 20, 2014

              Recommendation #10: We recommend the FEMA Assistant Administrator, Grant Programs
              Directorate to require MEMA to change its time allocation system to record the actual activity of
              stall or get approval from FEMA on its current time allocation system.

              Response: Contur: The Assistant Administrator, Grant Programs Directomte, will require
              MEMA to provide evidence that 1ts time allocation oystem is in compliance with 2 CFR Part
              225.

              FEMA requests thaJ This recommendation be resolved and open pending completion of the
              corrective action plan.

              Estimated Completion Date (ECD): June 20, 2014

              Again, we thank you fur lhe work that you and your team did to inform us of measures we can
              take to enhance the program's overall effectiveness. We look forward to GIG's tina! repott for
              "Maine's Management of State Homeland Security Program Grants Awarded During Fiscal
              Years 2010 Through 2012". Please direct any questiom regarding this response to Gary
              MeKeon, FEMA's Chief Audit Liaison, at 202-646-!308.

              E11dosures:
                     1. Maine THIRA
                     2, Mame SPR




                                                                 5




www.oig.dhs.gov                                                26                                                   OIG-14-86

                                          OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security




                                                                 STA'IEOFMAJNE
                                               0 6PA.R1M ENTOF D EFEN;"E, V ETERANS AND EMEROENCY
                                                                MANAOEMBNT
                                                    MAINE EM EROENC'\' MANAOEMBNT AOENCY
                                                           72 STA1E HOUSE STATION
                                                         AUOUSTA, IIWNE 0433).0072
                        PA\JL.R L!!PAOE
                         G OVERNOR                      !'HONE: 207-6H4 400/8CXH5Z.8735
                  BG )AM!!S D CAMPBW.                           FAX: 207-287•3180                          BRU:E I' J'ITzOEAAU)
                        ClOMMJSS!ONER                                                                        .Ac11NO DIRECTOR




                  To:       Mr. Marl• Bell
                        Act ing Assistant Inspector General for Audit, DHS-OTG Office of Audit
                  From: Bruce Fitzgerald
                        Acting D1rector, Mame Emergency Management /\gency
                  Date February 21, 2014
                  RE:   Main~· s r~sporu~ lo OIG' s Dra/1 Repori: Xiame's Jiana;;emenl o(Staii! Homeland Securiiy
                        Program GrantsAwankdDuring F2scal Years 2010 Throuxh 2012


                  First pleH.~e accept our thanks for the extended period of time to suhmit these comments. We have
                  expenenced a difficult wmter m 1\hine, wtth a severe tee storm and ongomg recovery period, in the
                  middle of a transition in leadership here at :Maine Emergency bihnagement Agency. \\' e appreciate your
                  considerahon oftl1ese circumstances and the additional time provided to submit tlns response to OIG's
                  Draft Audit Report

                  Below are 1\.ffilvlA's comments regarding the OIG recommendations from the Draft RepOJt

                  Recommendation 1. :\fEM.A. concurs with th1s rcr.;ommmdation. Further. as the recommendation
                  specifically Jircds FEMA. to develop and prov1Jc r.;onsJslcnt, r.;omprchmsivc measurement tools to lhc
                  States, we rc quest that this recommendation be rem ovc d from the State of Maine's individual audit report.

                  l~ecommendation 2: \1aine concur~ with this recommendation Prior grant gut dance to ~uhgmntees
                  included requirements to follow the "local purchasing practices" of tl1e su bgrantee jurisdiction. Going
                  forward , MElviA wlll amend Its guidance to ensure that subgrantees adhere to Federal and State
                  purchasmg guidelmes. Tlus will be applied to FY2014 grants and all h1tme grant awards.

                  Recommendation 3: :\fEMA disagrees witl1 these questioned costs. The subgrantees were followmg
                  guidance Cllrrent for the grant years bemg spent Le tl1at. tl1eir local purchasing procedures were
                  sufficient
                           I In the case of\\'aldo County EMA, the Emergency :\fanagement.Director has provided a
                              clear timeline and justification for the rationale for Ius purchasmg decisions. /\.copy of tl1is
                              tunehne IS mcluded witl1 tlus Memo The Agency den10nstrated cost savings by acti11g as the
                              "general contractor" for a tower con~truction pmJeCL rather than contracting out the enttre
                              project at a significant mark~up Additionally, tl1e Agency can provide all back-up
                              documentation :~nd attempts to secure local bids for vanous componenb of the project Tn
                              some cases, there wns only one local vendor that could provide the needed service
                           2 In the case ofthe City of Bangor, the City demonstrated that they followed tl1err own
                              established pw-chasing rules. The C1ty Cotmcil authorized the purchase of specific software
                              by sole source procurement, waiving their norm at bid process




www.oig.dhs.gov                                                      27                                                           OIG-14-86

                                       OFFICE OF INSPECTOR GENERAL
                                                Department of Homeland Security




                  :\s stated in the response to Recommendation 2, :VIHvlA will ensme that futme grant guidance contains
                  requirements to follow Federal and State pmchasing procedures.

                  ]{(;comm(;ndation 4: 1\-lli:-.L\. ~oncurs with this rccummmdation, :md stipul:!tes that it is already being
                  md. (;rant arrlications from subgrant<:<:s pass through multiplt: layt:rs ofrt:vit:w at \H·:tvli\ b., fort: h"ing
                  approved. Once spending on 'pecitic items has been authorized, mbgrantees purchase item' and mbmit
                  invoices to 1\;IEJ\..lA. for reimbursement.. At. this point the invoices aho receive multiple reviews by
                  ME!vlA. program and financial stalT. Ov~T many years uf managing HSGl' sp\-mling, ME:-.1..-\. staJI arc
                  v<:ry familiar with Lht: i\llowahlt: Equipmt:nl I .ist (:\1.:1 .), and indigihlt: <:xpt:nses art: not rt:imburst:d.
                  i\dditionally, the item' purcha'ed and reimbursed under the program are reviewed hy I\1F.:V!A 'taff during
                  the subgrmttee monitoring process, either in desk review or in a physical visit. to the sub grantee's location.

                  OIG Audit StaJI seemed focused on the f(;\1' examples of grant application forms wh~Tc subgr:mlecs did
                  not fill in a box for AEL numbt;r of spe<.:ifi<.: it.<arus. :Vllil\1.'\. counters that routine items such as "portabk
                  radios" and the like, which aTe clearly on the A.EL, should not. be held up or disallowed for mt oversight in
                  filling out a fonn. :viEI\•L'\. respectfully requests that tlris rcconuncndation be removed from the fmal
                  audit r(;port.

                  Recommendation 5: l'v1P.\f:\ concurs with this recommendation. OTG _,\udit Staff discovered a lack of
                  documentation in ME:VV\.'s files regMding the spending ofHSGP fundq on "statewide shared pmgra.mq"
                  which benefit multiple counties or regional groups of responders. As noted by OIG staff, ME\i'\.
                  corrt:dt:J this discr"Pancy on .fun<: 19, 2013 with Lh" signing ofl'v!OLs hy County J;_MA Dirt:dors that
                  agreed to the funding strategy of"statewide shared programs." furthermore, l'v1P.\fA has already
                  executed a sintilar MOU tor FY20 13 thnds. With this correction in nrind, 1\.ffi\IA respectfully request~
                  that tlris reconune:ndation be removed from the fmal audit rep ott.

                  H.<O<.:ommendation 6: ME:-.1..-\. disagrees with this rt'COlrum;mlaLion. For all grant y~:ars, 1\-lli:VV\. pruvid~:s a
                  "pre-award notit1cation letter" to subgrantee agencies within the 45 day period required by the grant. An
                  application period ensues, in which suhgrantees submit their project~ for review by Jv!F.l'v!;\ and an
                  official award letter and MOU arc executed. From the moment the pre-award letter is released,
                  subgrante;;e;;s are aware uftheir impc;;nding award and can begin Lu buJgdfur Lhcir prujc;cts. tvllil'vl-\.has
                  communicated this procedure to PP.\,[;\ Program Staff through annual monitoring visit~ for as many years
                  as the practice h.1.s been in place, and not once has the pmcedme been questioned. Furthermore, FEI\fA
                  requires documentation of this 45 day pass-through period through filing of the Initial Strategy
                  Implementation Plan (ISIP). 1\;IE.JvLo\ hao filed each year's ISIP on time, and with no queotions from
                  FEI\i.i\.1'rugram StalT about mann~T in which fumling is rckas<,;u Lu subgrantccs.

                  Recommendation 7: ME:\i'\. concms with this recommendation. Subgrantee motritoring is tlte historic
                  weakness ofME!vLo\'s program. \Ve believe the Agency prov~dcs ade<juatc controls throughout tltc
                  application, r(;Yi<.;w, awarding, ami rcimburs\-'lnent pruc~,;sscs, which limits th~,; risk of impropcr spmding
                  hy suhgranl<:<:s. I low.,v<:r, "-'has b""" documt:nlt:d in past audiL,, MJ·::VL\ 's linancial and program staff
                  consist~ of3 full time employees managing seven or more annual federal grant~, along with multiple 'tate
                  and other revenue streams. We believe that HSGP subgrantee monitoring could be strengthened with the
                  addition of finan~c/grant manag1..'1ncnt stall'. lhc Ag(;ncy has madc all\-mpts to in~r(;asc grant staffing
                  through state hudgd proctsst:s, and ha.' not ht:t:n succt:ssful. As a rtsull tht: ;\gt:ncy conducts tht: h"sl
                  monitoring that it can, with the limited resources available. We provided documentation of monitoring
                  policies and procedures, along with repotts from prior monitoring visits, to OIG Audit Staff.

                  R(;comm(;ndalion 8: ME:O.i'\. ~oncurs with this rc~ummmdation, fur the sam(; wasons as slated             abov~.


                  Recommendation 9: l\1P.\1A pattially concurs with this recommendation. The Agency recognizes that
                  inventory controls arc inadC(jUate as required by the CFR However, the Agency questions the level of




www.oig.dhs.gov                                                          28                                                                OIG-14-86

                                     OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security




                  detail required by grant regulatiom a11d the value of collecting and reporting this information to FE!vL\.
                  Throngh the Agency's established monitoring process, and in accordance witll the CFR regulation on
                  reporting items valued at $5.000 or more, subgrantees arc asked to produce for inspection the
                  ikmsh;quipmmt Lh~L wuru ruimburs~d grant t:xpmst:s. Discr'-p~ncit:s aru nut~d in Lht: monitoring report
                  and suhs"q=ntly d"alt with hdw""n rvn·:tvl:\ and th~;; suhgrankt;;. To "XJ>"Ct "v"ry suhgranl"" UJ
                  document the level of detail for every single item purchased is an unnecessary level of data collection that
                  we believe serves little purpose to FHv1-\. ME1,1-\. will develop a basic inventory tracking sheet. that
                  subgrantt:t:s will bt: rt:quir~d to compk:tc and fik with Lhu Agency.

                  Recommendation 10: \.-[F.\,1;\ disagrees with this recommendation. Like all State ofl'vlaine agencies,
                  l'v!E1,1-\. accounts for employee time using the l\-1S-TAMS online a ccmmting system. l11e system
                  provides for multiple project codes that employees can choose to record their time. The Agency funds its
                  staff using a combin~tion of Stalt:. Fc1kr~l ami Olhc,. r~vt:nuc struams. Wt: provi1kd multipk uxampks uf
                  tim"k""ping and payroll c"rtificatiun sh"ds Lo OlG Audit Stall~ and furth~ bdi"v" this proe<;ss to b"
                  adequate based on previom annual grant monitoring performed by FE1,1-\. Program Staff, who never
                  raised any issues with the Agency's methods. :viEJvL'\. believes it to be overly burdensome to require
                  imliviuual st:1ff Lo ruwrd tim~ spmt on work products Lu tht: kvd r~cummmdcu by OIG Audit St~ff.
                  \Vho;r~; mullipk }'RIA grants (su~h as Erv!PG anu llSGP) hav" ~ompli.m~;ntar_y, and olkn uv~;rlapping,
                  allowable activities, J\.1E\{:\ account~ for employee salaries and benefits using a percentage of time spent
                  working for each program, rather than requiring employees to record time spent on each grant down to the
                  fraction of an hour. htstead, payroll ce~tification sheets are signed by the employee to account for the
                  P"rctontag" or Lim" sp"nt on allowahl" grant adivili~s und"r t;;ach pmgram. \\,it;; ht;;li"v" this tn h"
                  adequate to ensure that staft' are working, and heing paid for, hy their appropriate grant program.




www.oig.dhs.gov                                                      29                                                          OIG-14-86

                                      OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security


   Appendix C
   MEMA Grant Allocation Process
                                    FEMA SHSP
                                    Grant Funds




                                      MEMA




                                         I
                                             80% Pass Through
      20% State Level Funding
                                             •   MEMA
      •     3o/o M&A
                                             •      Metro Areas
      •     17°/o Sal aries
                                             •      Counties/Locals




     MEMA Statewide
     Programs
     •    Public Awareness
                                                                                                 1
                                                                                              55% (80% of
                                                 45% (80% of funds)                             funds)
     •    Hazmat & Special                         to Metro Areas                           competitively
         Teams                                                                                awarded to
     •   Training                                                                          r.   '"' '"
     •    Exercises


                                                                                            MEMA sends
                                             MEMA sends Pre-
                                                                                          Grant Guidance &
                                              Award Letter to
                                                                                            Application to
                                               Metro Areas
                                                                                                                                               I



                                                                                                                       0
                                                                                           Counties/Locals                  Inform Counties/
                                                                                                                                 Locals
                               No


                                                  Metros send
                                                                                                 1
                                                                                            Grant Review
                                                                                                                        I


          udget Proposa                          MEMA Original/                                                                            1
            Approved                             Revised Budget
                                                                                          Committee scores    1-------<                d
                                                                                          & ranks proposals
                                                   Proposals




                              Yes                           MEMA sends Award letter & MOU                       Yes
                                                             to Sub-grantee(obligating grant
                                                                         funds)




                                                                      Sub-grantees sign
                                                                      and return MOU to
                                                                       MEMA and can
                                                                       get reimbursed




                                                                                                                        *Fv 2012 Funding is
                                                                                                                       based on formula not a
                                                                                                                        competitive process.
                                                                                                                       Process is similar to FY
                                                                                                                      2010/2011 Metro Awards

   Source: DHS OIG





www.oig.dhs.gov                                                       30                                                    OIG-14-86

                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Appendix D
   Homeland Security Grant Program
   The HSGP provides Federal funding to help state and local agencies enhance capabilities
   to prevent, deter, respond to, and recover from terrorist attacks, major disasters, and
   other emergencies. It encompasses several interrelated Federal grant programs that
   together fund a range of preparedness activities, including planning, organization,
   equipment purchase, training, and exercises, as well as management and administration
   costs. Programs include the following:

   •	 The State Homeland Security Program provides financial assistance directly to each
      of the states and territories to prevent, respond to, and recover from acts of
      terrorism and other catastrophic events. The program supports the implementation
      of the state homeland security strategy to address identified planning, equipment,
      training, and exercise needs.

   •	 The Urban Areas Security Initiative provides financial assistance to address the
      unique planning, equipment, training, and exercise needs of high-risk urban areas,
      and to assist in building an enhanced and sustainable capacity to prevent, respond
      to, and recover from threats or acts of terrorism and other disasters. Allowable costs
      for the urban areas are consistent with the SHSP. Funding is expended based on the
      urban area homeland security strategies.

   The HSGP also includes other interrelated grant programs with similar purposes.
   Depending on the fiscal year, these programs include the following:

   •	 Metropolitan Medical Response System
   •	 Citizen Corps Program
   •	 Operation Stonegarden




www.oig.dhs.gov                               31                                	      OIG-14-86

                           OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix E
   Potential Monetary Benefits
                                 Classification of Monetary Benefits
                                                       Questioned
                                           Funds To                    Questioned
                                 Rec.                     Costs –
             Finding                       Be Put to                    Costs –     Total
                                  No.                  Unsupported
                                          Better Use                     Other
                                                           Costs

    Subgrantee purchases not
    in compliance with Federal
                                  3          $0            $89,500            $0    $89,500
    and state procurement
    policy.

   Source:fDHS OIG 





www.oig.dhs.gov                                   32                                    OIG-14-86

                        OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


   Appendix F
   Major Contributors to This Report
   Alexander Best, Director
   Patrick Tobo, Audit Manager
   Tessa May-Fraser, Auditor in Charge
   Christopher Byerly, Program Analyst
   Elaine Ferguson, Program Analyst
   Megan McNulty, Program Analyst
   Kelly Herberger, Communications Analyst
   Stephanie Christian, Referencer




www.oig.dhs.gov                              33                OIG-14-86

                           OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix G
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grant Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  34                        OIG-14-86

ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
